Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrants to the Kansas City, Kansas Police Department
GR-50-00-015March 2, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Kansas City, Kansas Police Department (Kansas City PD).  The purpose of the grants is to enhance community policing.  The city of Kansas City was awarded a total of $827,500 to hire 9 entry level sworn police officers and redeploy the equivalent of 6.3 existing full-time officers from administrative duties to community policing.
	
We reviewed the Kansas City PD's compliance with eight essential grant conditions.  We found the grantee's practices for budgeting, hiring, local matching funds, planning for retention of officers, and community policing activities to be acceptable.  However, we found weaknesses in three other areas as identified below.  As a result, we question $157,500. 


The redeployment grant (and extension) ended on March 31, 1999, and at the time of our audit, none of the 6.3 positions had been redeployed to community policing.  The grantee was reimbursed $132,356 for computer equipment to allow it to redeploy officers from administrative duties to community policing.  However, according to the grantee, the equipment has not been installed due to technical problems.  As a result, we question $132,356.
	The Kansas City PD received reimbursement for unallowable costs totaling $25,144.  
	Several monitoring reports were either not accurate, not timely, or not filed. 

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.